FILED
MAY 2 9 2019

H9°000

OFFICE OF THE CLERK
SUPREME COURT. U.S.

No.

In the

Supreme Court of tfje Mntteb States;
Jackie Hosang Lawson,
Petitioner,
v.

FMR LLC, et al.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Jackie Hosang Lawson, Pro Se
27 Kilsyth Road
Brookline, MA 02445
(617) 739-4088
Jackielaw88@ comcast.net

Dated: June 14, 2019
BATEMAN & SLADE, INC.

STONE HAM, MASSACHUSETTS

TWO QUESTIONS PRESENTED
The district court excluded expert witness
testimony. The First Circuit held that the proffered
testimony “where not irrelevant” improperly
impinged upon the role of the court in instructing
jurors on the applicable legal standards. The district
court, however, neglected to instruct the jury on the
integral federal securities laws relevant to the case,
as was promised. Thus, the lay jury did not receive
any guidance as to what “could constitute violation
of Federal law relating to fraud;” a pivotal
component of the two deciding questions on the jury
slip.
1.

Is the jury verdict just and proper on
the two deciding questions whether
“Fidelity’s conduct could constitute
violation of Federal law relating to
fraud against Fidelity’s mutual Fund
shareholders,” where the jury was not
made aware of what constitutes
“violation of Federal law relating to
fraud,r (Emphasis added).

On March 04, 2014, this Court ruled in favor
of the Petitioner, that the Respondents were covered
entities under Section 806 of the Sarbanes-Oxley
Act, 18 U.S.C. § 1514A.
2.

Which party; the Petitioner or the
Respondents, is liable for the attorney
fees incurred for getting coverage for
the Respondents under the SarbanesOxley Act of 2002, on March 04, 2014,
at the United States Supreme Court?

i

PARTIES
The petitioner is Jackie Hosang Lawson.
The respondents are FMR LLC, FMR Co. Inc.,
FMR Corp., Fidelity Brokerage Services, LLC, and
Fidelity Management & Research Company. All of
the respondents are privately-held companies.
No Fidelity mutual fund is a party to this
action.

n

TABLE OF CONTENTS
QUESTIONS PRESENTED

i

PARTIES

11

TABLE OF AUTHORITIES

v

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY PROVISIONS AND
REGULATIONS INVOLVED

1

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE WRIT

2

I.

INTRODUCTION

2

II.

THERE IS A CLEAR AND
DISTINCT CONTRADICTION
BETWEEN THE JUDGMENT
OF THE FIRST CIRCUIT AND
PRECEDENCE SET BY THE
FIRST CIRCUIT REGARDING
EXPERT WITNESS
TESTIMONY...............................

4

in

III.

THE FIRST CIRCUIT
IGNORED A REQUESTED DE
NOVO REVIEW OF GREAT
IMPORTANCE REGARDING
VIOLATION OF THE
CONSTITUTIONALITY OF AN
ACT OF CONGRESS THAT
SHOULD BE RESOLVED BY
THIS COURT...............................

CONCLUSION

8
13

APPENDIX
Appendix A - Judgment of the Court of
Appeals for the First Circuit,
March 12, 2019.............................

la

Appendix B - Judgment of the District
Court for the District of
Massachusetts, November 14,
2017...............................................

6a

Appendix C — Verdict

7a

Appendix D - Memorandum and Order
of the District Court for the
District of Massachusetts, July
12, 2018.........................................

15a

Appendix E - Statutes and Regulations
Involved..........................................

20a

IV

TABLE OF AUTHORITIES
Cases:
Adams v. New England Scaffolding, Inc.,
not reported F. Supp.3d (2015).....

5

Cruz-Vazquez v. Mennonite GeneralHosp., Inc.,
613 F.3d 54 (2010)........................................ 4-5
Daubert v. MerrellDowPharm., Inc.,
509 U.S. 579 (1993)..................

4

General Electric Co. v. Joiner,
522 U.S. 136 (1997).....

4

Gomez v. Rivera Rodriguez,
344 F.3d 103 (1st Cir. 2001)

5

Kumho Tire Co., Ltd. v. Carmichael,
526 U.S. 137 (1999)................

4

Lawson v. FMRLLC,
571 U.S. 429 (2014)

1

Nieves-Villanueva v. Soto-Rivera,
133 F.3d 92 (1st Cir. 1988).

5

Statutes:
10
i, 1,8
1

18 U.S.C. § 1512...
18 U.S.C. § 1514A
28 U.S.C. § 1254...

v

Rules:
3

Fed. R. Evid. 702

vi

Petitioner Jackie Hosang Lawson respectfully
prays that this Court grant a writ of certiorari to
review the judgment and opinion of the United
States Court of Appeals entered on March 18, 2019.
OPINIONS BELOW
The March 18, 2019 opinion of the First
Circuit is unreported, and set out at pp. la-5a of the
Appendix. The July 12, 2018 Memorandum and
Order of the District Court for the District of
Massachusetts, is set out at pp. 15a-19a of the
Appendix.
JURISDICTION
The judgment of the Court of Appeals was
This Court has
entered on March 18, 2019.
jurisdiction pursuant to 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS AND
REGULATIONS INVOLVED
The statutory provisions and regulations
involved are set out in the Appendix.
STATEMENT OF THE CASE
This case; the offshoot of Lawson v. FMR LLC,
571 U.S. 429 (2014), filed under The Sarbanes-Oxley
Act of 2002, 18 U.S.C. § 1514A, number one issue on
appeal: “Whether the Plaintiff is entitled to a new
trial because of an abuse of discretion by the district
court in allowing the Defendants’ motion in limine to
exclude expert witness testimony and opinion.”
While Lawson stated other issues on appeal, she
clearly demonstrated: “The adverse impact of the
district court’s error, in “ALLOWING the
Defendants’ Motion to Exclude the testimony and
1

Opinion of Mercer Bullard” runs like a “cancerous
vein” throughout the entire trial, detrimentally
compromising and denying, Lawson the right to a
fair trial.” In essence, Lawson strongly argued that
the main issue concerning a matter of law, is the
controlling factor interlaced in, and, exacerbated, the
other issues on appeal. Lawson presented compelling
supporting evidence marginalized by The First
Circuit.
On March 18, 2019, The First Circuit affirmed
the district court’s judgment, holding that no errors
were found on any of the issues, and that Lawson’s
claim of abuse of discretion by the district court in
excluding the testimony of her expert witness “is
unconvincing.” App. la-5a.
REASONS FOR GRANTING THE WRIT
I.

INTRODUCTION

Lawson’s expert witness, Professor Mercer E.
Bullard; an MDLA Distinguished lecturer and
Professor of Law, has impressive credentials, and
fulfills all the eligibility requirements as an expert
witness. Professor Bullard’s expert report passed
muster for relevance and reliability, and Lawson
emphasized to the district court the importance of
his testimony at trial. “The principal purpose of
Professor Bullard’s testimony is to assist the
factfinders, here a lay jury, in their determination of
the reasonableness of Ms. Lawson’s belief that she
was encountering violations and regulations to
protect shareholders.”
As held by the First Circuit, the district
court’s aversion to Lawson’s expert witness
testifying at trial was that he would “improperly
2

impinged upon the role of the court in instructing
jurors on the applicable legal standards.” Under this
premise, the district court made strong, and binding,
promissory statements: “I see nothing there that I
can’t do,” “We’ll work together to be sure that I bring
to the attention of the jury all those matters that the
parties think are in dispute here as a legal
proposition,” “It can be presented by me here,” “That
high level of generality is one that I can occupy.” “I
don’t mean to leave the jury at sea about what a ’40
Act company or is [sic] what the obligations of a ’40
Act company or what the obligations of those
involved with the 1940 Act companies are.”
The district court reneged on its promises and
the jury was not given any guidance as to what
constitutes violation of federal law relating to fraud,
and, to which Professor Bullard would have testified
and opined on in relation to Ms. Lawson’s specific
claims. The lay jury answered “No” to the following
two questions: Has Ms. Lawson proven by a
preponderance of the evidence she had (lj an actual
subjective belief, and (2) an objectively reasonable
belief, that Fidelity’s conduct could constitute
violation of Federal law relating to fraud against
Fidelity’s Mutual Fund shareholders?
As a matter of law, pursuant to Fed. R. Evid.
702, Professor Bullard should have been permitted
to testify. Fed. R. Evid. 702. Testimony by Expert
Witnesses states that: “A witness who is qualified as
an expert by knowledge, skill, experience, training,
or education may testify in the form of an opinion or
otherwise if:
(a)

the expert’s scientific, technical,
or other specialized knowledge
3

will help the trier of fact to
understand the evidence or to
determine a fact in issue;
(b)

the testimony is based
sufficient facts or data;

on

(c)

the testimony is the product of
reliable principles and methods;
and

(d)

the expert has reliably applied
the principles and methods to the
facts of the case.”

Professor Bullard’s proffered testimony satisfy
all the requirements this Court held in Daubert v.
Merrell Dow Pharm., Inc., 509 U.S. 579 (1993);
General Electric Co. v. Joiner, 522 U.S. 136 (1997);
and, Kumho Tire Co., Ltd. v. Carmichael, 526 U.S.
137
(1999),
on expert witness testimony
admissibility.
II.

THERE IS A CLEAR AND DISTINCT
CONTRADICTION BETWEEN THE
JUDGMENT OF THE FIRST CIRCUIT AND
PRECEDENCE SET BY THE FIRST
CIRCUIT REGARDING EXPERT WITNESS
TESTIMONY

Professor Bullard was Lawson’s lone expert
witness to testify on securities rules and regulations
governing the mutual fund industry. In an exact
situation regarding exclusion of a Plaintiffs lone
expert witness, the First Circuit applied a different
standard as they held below in Lawson. The first
Circuit in Cruz- Vazquez v. Mennonite General
Hosp., Inc., 613 F.3d 54, 57 (2010), ruled:
4

The district court excluded the
testimony of the plaintiffs lone expert
witness at trial. As a result of the
court’s ruling, the plaintiffs’ failed to
offer proof on crucial elements of their
case,
and
the
district
court
consequently granted judgment as a
matter of law for the defendants. The
plaintiffs appeal, arguing that the
district court abused its discretion when
it excluded the expert testimony and
that its award of judgment for the
defendants must be vacated. We agree.
Regarding the limitations on expert witness
legal testimony, the First Circuit held that “purely
legal questions and instructions to the jury on the
law to be applied ... [are] exclusively the domain of
the judge.” Nieves-Villanueva v. Soto-Rivera, 133
F.3d 92, 100 (1st Cir. 1988). The First Circuit later
revised that holding: “Nonetheless, and despite
occasional judicial pronouncements to the contrary,
there is no blanket prohibition on expert testimony
concerning the law. See Gomez v. Rivera Rodriguez,
344 F.3d 103, 115 n.6 (1st Cir. 2001).
As the court in Adams v. New England
Scaffolding, Inc. not reported in F. Supp.3d (2015),
opined on excluding expert witness testifying on the
law:
Indeed it would be unwise and
unworkable
to impose
such
a
prohibition.
We live in a highly
complex and often bureaucratic society
with a multitude of legal and regulatory
requirements; it is frequently the case
5

that the acts or omissions of the parties,
or their legal or contractual obligations,
can only be fully understood in the
context of a particular regulatory
environment.
Such
a
regulatory
environment often needs to be
explained to lay persons, and therefore
expert testimony may be helpful to the
jury to understand the issues in the
case.
(Emphasis added.)
Professor Bullard’s Expert Report accordingly
explained that the Securities Exchange and
Commission 15(c) Process was the main topic on
which he would testify. His reported stated:
This process which is known as the
15(c) Process was Ms. Lawson’s primary
focus during the employment period at
issue in this litigation. I have extensive
experience regarding the rationale and
context for the 15(c) Process, the actual
implementation of the Process by
multiple fund complexes, including the
Fidelity complex, and the procedural
standards that are applied pursuant to
this Process.
Professor Bullard’s testimony would not have
tread on the province of the Sarbanes-Oxley Act, and
how this statute should be applied to Lawson’s
claims. His testimony would have been limited,
addressing the Securities Exchange and Commission
15(c) Process, and the regulation applicability of

6

Rule 12b-1, in relation to Lawson’s claims of
securities fraud.
Lawson’s counsel took great care in preparing
a Proffer for acceptability by the district court to
permit Professor Bullard to testify and give his
opinion: “The proffer removes any statement about
the law.” But the district court argued that the
Proffer “brings in an oracular voice and that: “It can
be presented by me here.” “He doesn’t add anything.
He’s not in the position to testify with respect to
Fidelity’s practices.” The district court, however, did
not instruct the jury on the relevant federal rules
and regulations that would have been presented by
Professor Bullard.
In further aggravation, there was no expert
rebuttal to the testimony and opinion of the
Defendants’ expert witness, Russell F. Peppet, who
was permitted to testify. The Defendants were also
able to use duplicity and capitalize on Professor
Bullard’s absence at trial by posing an
unanswerable, influencing question to the jury
during closing arguments:
Ask yourself, ask yourself as you conduct this
exhaustive review, why didn’t you hear from a
single additional person who agrees with Ms.
Lawson about her claims of fraud? Why didn’t
you hear from anyone else at Fidelity, inside
Fidelity, outside Fidelity? You heard from a
whole range of witnesses both from inside and

7

outside. Not one, not one of them agreed with
Ms. Lawson with respect to her claims.1
III.

THE FIRST CIRCUIT IGNORED A
REQUESTED DE NOVO REVIEW OF
GREAT IMPORTANCE REGARDING
VIOLATION OF THE
CONSTITUTIONALITY OF AN ACT OF
CONGRESS THAT SHOULD BE RESOLVED
BY THIS COURT

Lawson’s case is filed under The SarbanesOxley Act of 2002, 18 U.S.C. § 1514A. George W.
Bush, 43rd President of the United States: 2001 2009, Statement on Signing the Sarbanes-Oxlev Act
of 2002:
Today I have signed into law H.R. 3763,
“An Act to protect investors by
improving the accuracy and reliability
of corporate disclosures made pursuant
to the securities laws, and for other
purposes. The Act adopts tough new
provisions to deter and punish
corporate and accounting fraud and
ensure
for
justice
corruption,
wrongdoers, and protect the interests of
workers and shareholders.

1 PricewaterhouseCoopers (“PwC”), the external auditor
was scheduled to testify at trial, and based on documents
produced during the discovery phase of litigation would have
corroborated Ms. Lawson’s reasonable belief of securities fraud.
After the Plaintiffs case was closed the Defendants informed
the district court that PricewaterhouseCoopers would not
testify at trial.

8

Several provisions of the Act require careful
construction by the executive branch as it
faithfully executes the Act.
The legislative purpose of sections 302,
401, and 906 of the Act, relating to
certification and accuracy of reports, is
to strengthen the existing corporate
reporting system under section 13(a)
and 15(d) of the Securities Exchange
Act of 1934. Accordingly, the executive
branch shall construe this Act as not
affecting authority relating to national
security set forth in section 13(b) of the
Securities Exchange Act of 1934.
To ensure that no infringement on the
constitutional right to petition the
Government for redress of grievances
occurs in the enforcement section of
1512(c) of title 18 of the U.S. Code,
enacted by section 1102 of the Act,
which among other things prohibits
corruptly influencing any official
proceeding, the executive branch shall
construe the term “corruptly” in section
1512(c)(2) as requiring proof of a
criminal state of mind on the part of the
defendant.
Given that the legislative purpose of
section 1514A of title 18 U.S. Code,
enacted by section 806 of the Act, is to
protect against company retaliation for
lawful cooperation with investigations
and not to define the scope of
investigative authority or to grant new
9

investigative authority, the executive
shall
branch
construe
section
referring
to
1415A(a)(l)(B)
as
investigations authorized by the rules
of the Senate or the House of
Representatives and conducted for a
proper legislative purpose.
George W. Bush
The White House, July 30, 2002.
Lawson ‘s case originated at the Department
of Labor. The reason her case is in the federal arena
is because the Respondents violated Lawson’s
constitutional rights, pursuant to section of
1512(c)(2) of title 18 of the U.S. Code, “Whoever
otherwise obstructs, influences, or
corruptly
impedes any official proceeding, or attempts to do so,
shall be fined under this title or imprisoned not more
than 20 years, or both.” The Respondents
successfully influenced OSHA to put the Lawson
case on hold indefinitely, cancelling a scheduled
investigation, which left Lawson with no other
option than to seek justice in the federal courts.
On or about September 10, 2007, almost nine
months after Ms. Lawson’s first complaint, OSHA
notified all parties that the Defendants were covered
entities under The Sarbanes-Oxley Act of 2002. On
September 20, 2007, OSHA investigator Kristen
Rubino officially notified outside counsel, to set up
interviews “of the Fidelity management staff.” On
October 03, 2007, Ms. Rubino also confirmed with
the Plaintiffs attorney that Ms. Rubino had
scheduled an investigation into Ms. Lawson’s claims,

10

giving a specific date in November 2007, for the
commencement of the investigation.
On November 14, 2018, the Plaintiff received
FOIA documents showing that external counsel,
attorney Eugene Scalia, and members of the
Defendants’ general counsel office interfered with a
government scheduled investigation. Mr. Scalia had
ex-parte communications with Nilgun Tolek in
Washington D.C. starting September 14, 2007. On
September 14, 2007, OSHA’s regional director Carole
Horowitz asked Ms. Tolek: “Based on your
conversation with Scalia, do you see any reason why
Kristen should hold off on interviewing witnesses in
this case?” Ms. Tolek response: “No. I don’t think
he’ll be able to convince us to back off. I’m hoping
instead to simply convince him that we’re not nuts.”
On September 26, 2007, attorney Scalia
continued ex-parte communications with Ms. Tolek,
scheduling a time for him and his clients, to meet
with
Ms.
Tolek;
Subject:
“RE:
Redux:
Fidelitv/Lawson.” On October 2, 2007, @ 3:59 PM,
Ms. Tolek notified attorney Scalia, “All of us are
available on the 19th, and on the 10th, it would need
to be before 10 or after 3. My only concern is that the
19th is so far away, and the investigation needs to
move forward....”
On October 2, 2007, @ 4:13 PM, attorney
Scalia responded asking Ms. Tolek to reserve the
19th, further stating “—I appreciate your point about
the investigation - but it turns out that date does
not work for an important representative of the
client.” The “Meeting with Scalia” and the
“important representative of the client” was
scheduled for October 19, 2007 at 1:00 PM. Shortly
11

after attorney Scalia’s October 19, 2007, meeting
with Ms. Tolek, and the expected attendance of the
aforementioned “important representative of the
client,” Ms. Rubino notified the Plaintiffs attorney
that the Lawson case had been put on hold
indefinitely, and, that the November scheduled
investigation had been cancelled. The only
explanation provided by Ms. Rubino was that the
order to put the case on hold indefinitely, came from
the highest level in Washington, D.C.
Lawson’s argument to the First Circuit for a
de novo review for attorney fees is that the
Respondents are liable for the attorney fees incurred
in getting coverage under Sarbanes-Oxley, since the
Respondents are responsible for Lawson’s case
moving from one jurisdiction to another, and thus
responsible for Lawson legal fees incurred over eight
years pursuing coverage for the Respondents under
Sarbanes-Oxley; coverage that had already been
decided by the Department of Labor in 2007.
The consequences of the Respondents’ action,
ignored in the First Circuit’s judgment, are
particularly serious; it undermines the democratic
process of. The United States; it lessens Congress’
intended protection of investors’ interests; and it
demonstrates a big corporation’s corrupting
influence adversely, and unjustly, impacting an
employee’s constitutional rights.

12

CONCLUSION
For the above reasons, a writ of certiorari
should issue to review the judgment and opinion of
the Court of Appeals for the First Circuit.
Respectfully submitted,
JACKIE HOSANG LAWSON, PROSE
27 Kilsyth Road
Brookline, MA 02445
(617) 739-4088
j ackielaw88@comcast. net
Dated: June 14, 2019

13

